      DEPARTMENT OF HEALTH & HUMAN SERVICES                             Office of Inspector General

                                                                        Washington, D.C. 20201




April 13, 2010

TO:              Charlene Frizzera
                 Acting Administrator
                 Centers for Medicare & Medicaid Services


FROM:            /Joseph E. Vengrin/
                 Deputy Inspector General for Audit Services


SUBJECT:         Review of National Government Services, Inc., Medicare Payments to Providers
                 Terminated Between January 1, 2003, and January 31, 2007 (A-05-09-00035)


Attached, for your information, is an advance copy of our final report on National Government
Services, Inc. (NGS), Medicare payments to providers terminated between January 1, 2003, and
January 31, 2007. We will issue this report to NGS within 5 business days.

If you have any questions or comments about this report, please do not hesitate to call me, or your
staff may contact George M. Reeb, Assistant Inspector General for the Centers for Medicare
& Medicaid Audits, at (410) 786-7104 or through email at George.Reeb@oig.hhs.gov or James C.
Cox, Regional Inspector General for Audit Services, Region V, at (312) 353-2621 or through email
at James.Cox@oig.hhs.gov . Please refer to report number A-05-09-00035.


Attachment
     DEPARTMENT OF HEALTH & HUMAN SERVICES                                Office of Inspector General

                                                                          Office of Audit Services, Region V
                                                                          233 North Michigan Avenue
                                                                          Suite 1360
                                                                          Chicago, IL 60601
April 20, 2010

Report Number: A-05-09-00035

Ms. Sandy Miller
President
National Government Services, Inc.
8115 Knue Road
Indianapolis, IN 46250

Dear Ms. Miller:

Enclosed is the U.S. Department of Health & Human Services (HHS), Office of Inspector
General (OIG), final report entitled Review of National Government Services, Inc., Medicare
Payments to Providers Terminated Between January 1, 2003, and January 31, 2007. We will
forward a copy of this report to the HHS action official noted on the following page for review
and any action deemed necessary.

The HHS action official will make final determination as to actions taken on all matters reported.
We request that you respond to this official within 30 days from the date of this letter. Your
response should present any comments or additional information that you believe may have a
bearing on the final determination.

Section 8L of the Inspector General Act, 5 U.S.C. App., requires that OIG post its publicly
available reports on the OIG Web site. Accordingly, this report will be posted at
http://oig.hhs.gov.

If you have any questions or comments about this report, please do not hesitate to call me, or
contact David Markulin, Audit Manager, at (312) 353-1644 or through email at
David.Markulin@oig.hhs.gov. Please refer to report number A-05-09-00035 in all
correspondence.

                                             Sincerely,


                                             /James C. Cox/
                                             Regional Inspector General
                                               for Audit Services


Enclosure
Page 2 – Ms. Sandy Miller


Direct Reply to HHS Action Official:

Ms. Nanette Foster Reilly
Consortium Administrator
Consortium for Financial Management & Fee for Service Operations
Centers for Medicare & Medicaid Services
601 East 12th Street, Room 235
Kansas City, MO 64106
Department of Health & Human Services
           OFFICE OF
      INSPECTOR GENERAL




   REVIEW OF NATIONAL
GOVERNMENT SERVICES, INC.,
  MEDICARE PAYMENTS TO
  PROVIDERS TERMINATED
 BETWEEN JANUARY 1, 2003,
   AND JANUARY 31, 2007




                      Daniel R. Levinson
                       Inspector General

                          April 2010
                        A-05-09-00035
                        Office of Inspector General
                                          http://oig.hhs.gov



The mission of the Office of Inspector General (OIG), as mandated by Public Law 95-452, as amended, is
to protect the integrity of the Department of Health & Human Services (HHS) programs, as well as the
health and welfare of beneficiaries served by those programs. This statutory mission is carried out
through a nationwide network of audits, investigations, and inspections conducted by the following
operating components:

Office of Audit Services

The Office of Audit Services (OAS) provides auditing services for HHS, either by conducting audits with
its own audit resources or by overseeing audit work done by others. Audits examine the performance of
HHS programs and/or its grantees and contractors in carrying out their respective responsibilities and are
intended to provide independent assessments of HHS programs and operations. These assessments help
reduce waste, abuse, and mismanagement and promote economy and efficiency throughout HHS.

Office of Evaluation and Inspections
The Office of Evaluation and Inspections (OEI) conducts national evaluations to provide HHS, Congress,
and the public with timely, useful, and reliable information on significant issues. These evaluations focus
on preventing fraud, waste, or abuse and promoting economy, efficiency, and effectiveness of
departmental programs. To promote impact, OEI reports also present practical recommendations for
improving program operations.

Office of Investigations
The Office of Investigations (OI) conducts criminal, civil, and administrative investigations of fraud and
misconduct related to HHS programs, operations, and beneficiaries. With investigators working in all 50
States and the District of Columbia, OI utilizes its resources by actively coordinating with the Department
of Justice and other Federal, State, and local law enforcement authorities. The investigative efforts of OI
often lead to criminal convictions, administrative sanctions, and/or civil monetary penalties.

Office of Counsel to the Inspector General
The Office of Counsel to the Inspector General (OCIG) provides general legal services to OIG, rendering
advice and opinions on HHS programs and operations and providing all legal support for OIG’s internal
operations. OCIG represents OIG in all civil and administrative fraud and abuse cases involving HHS
programs, including False Claims Act, program exclusion, and civil monetary penalty cases. In
connection with these cases, OCIG also negotiates and monitors corporate integrity agreements. OCIG
renders advisory opinions, issues compliance program guidance, publishes fraud alerts, and provides
other guidance to the health care industry concerning the anti-kickback statute and other OIG enforcement
authorities.
                         Notices


    THIS REPORT IS AVAILABLE TO THE PUBLIC
              at http://oig.hhs.gov

 Section 8L of the Inspector General Act, 5 U.S.C. App., requires
 that OIG post its publicly available reports on the OIG Web site.

OFFICE OF AUDIT SERVICES FINDINGS AND OPINIONS

 The designation of financial or management practices as
 questionable, a recommendation for the disallowance of costs
 incurred or claimed, and any other conclusions and
 recommendations in this report represent the findings and
 opinions of OAS. Authorized officials of the HHS operating
 divisions will make final determination on these matters.
                                  EXECUTIVE SUMMARY

BACKGROUND

Pursuant to Title XVIII of the Social Security Act (the Act), the Medicare program provides
health insurance for people aged 65 and over and those who are disabled or have permanent
kidney disease. The Centers for Medicare & Medicaid Services (CMS), which administers the
program, uses Medicare contractors, such as fiscal intermediaries (FI), to process and pay
Medicare claims submitted by health care providers. Section 911 of the Medicare Prescription
Drug, Improvement, and Modernization Act of 2003, P.L. No. 108-173, which became effective
on October 1, 2005, amended certain sections of the Act to require that Medicare administrative
contractors (MAC) replace FIs and carriers by October 2011.

Medicare contractors, such as FIs and MACs, must comply with Medicare laws, regulations, and
guidance, including provisions for processing payments to terminated or sanctioned Medicare
providers. Section 1866(b) of the Act provides for the termination of provider agreements,
which set forth the terms and conditions for participation in the Medicare program. Sections
1814(a) and 1866 of the Act generally do not allow payment for services provided on or after an
agreement’s termination date. Pursuant to section 1819(h)(2)(B)(i) of the Act, CMS may impose
a denial of payment for new admissions (DPNA) sanction on skilled nursing facilities that fail to
comply with Medicare requirements. The Medicare Claims Processing Manual, Pub.
No. 100-04, chapter 6, section 50, denies payment for Medicare Part A services provided to
beneficiaries initially admitted during a DPNA sanction period. The Medicare Financial
Management Manual, Pub. No. 100-06, chapter 7, requires Medicare contractors to maintain
internal controls to prevent erroneous payments; chapter 3 requires Medicare contractors to
pursue recovery of overpayments, including those made to terminated or sanctioned Medicare
providers.

Empire HealthChoice Assurance, Inc. (Empire), was an FI during our audit period (January 1,
2003, through January 31, 2007). However, this report refers to the auditee as “National
Government Services, Inc.” (NGS), because in January 2007, NGS assumed the FI business
operations of Empire. CMS subsequently awarded NGS two MAC contracts for the
administration of Medicare Part A and Part B claims.

OBJECTIVE

Our objective was to determine whether NGS recovered Medicare overpayments for services
furnished on or after the effective termination dates of provider agreements or during
termination-related DPNA sanction periods.

SUMMARY OF FINDING

NGS did not always recover Medicare overpayments for services furnished on or after the
effective termination dates of provider agreements or during termination-related DPNA sanction
periods. For 59 of the 64 terminated providers whose payments we reviewed, NGS had not
made material overpayments that were subject to recovery as of the start of our audit. However,



                                                i
for the five remaining providers, NGS had not recovered a total of $1,221,342 in overpayments
that were subject to recovery. NGS had not recovered $1,159,522 of this total because it did not
follow its procedures to retroactively identify payments for posttermination services. NGS had
not recovered the remaining $61,820 because it had not yet implemented written DPNA-related
procedures. NGS confirmed that the overpayments were subject to recovery.

RECOMMENDATIONS

We recommend that NGS:

      recover $1,221,342 in overpayments to the five terminated providers and

      follow its procedures to retroactively identify and recover overpayments for services
       furnished on or after the providers’ effective termination dates.

NATIONAL GOVERNMENT SERVICES COMMENTS

In written comments on our draft report, NGS agreed with our recommendations and provided
information on the status of its claim adjustments. NGS’s comments, except for sensitive
information, are included as the Appendix.




                                               ii
                                                    TABLE OF CONTENTS

                                                                                                                                         Page

INTRODUCTION......................................................................................................................... 1

     BACKGROUND ...................................................................................................................... 1
       Medicare Program............................................................................................................... 1
       Medicare Payment Requirements ....................................................................................... 1
       National Government Services, Inc. ................................................................................... 1

     OBJECTIVE, SCOPE, AND METHODOLOGY .................................................................... 2
       Objective ............................................................................................................................. 2
       Scope................................................................................................................................... 2
       Methodology ....................................................................................................................... 2

FINDING AND RECOMMENDATIONS.................................................................................. 3

     FEDERAL REQUIREMENTS................................................................................................. 3

     OVERPAYMENTS NOT RECOVERED................................................................................ 3

     RECOMMENDATIONS.......................................................................................................... 4

     NATIONAL GOVERNMENT SERVICES COMMENTS ..................................................... 4

APPENDIX

     NATIONAL GOVERNMENT SERVICES COMMENTS




                                                                      iii
                                      INTRODUCTION

BACKGROUND

Medicare Program

Pursuant to Title XVIII of the Social Security Act (the Act), the Medicare program provides
health insurance for people aged 65 and over and those who are disabled or have permanent
kidney disease. The Centers for Medicare & Medicaid Services (CMS), which administers the
program, uses Medicare contractors, such as fiscal intermediaries (FI), to process and pay
Medicare claims submitted by health care providers. Section 911 of the Medicare Prescription
Drug, Improvement, and Modernization Act of 2003, P.L. No. 108-173, which became effective
on October 1, 2005, amended certain sections of the Act to require that Medicare administrative
contractors (MAC) replace FIs and carriers by October 2011.

Medicare Payment Requirements

Medicare contractors, such as FIs and MACs, must comply with Medicare laws, regulations, and
guidance, including provisions for processing payments to terminated or sanctioned Medicare
providers. Section 1866(b) of the Act provides for the termination of provider agreements,
which set forth the terms and conditions for participation in the Medicare program. Sections
1814(a) and 1866 of the Act generally do not allow payment for services provided on or after an
agreement’s termination date. Pursuant to section 1819(h)(2)(B)(i) of the Act, CMS may impose
a denial of payment for new admissions (DPNA) sanction on skilled nursing facilities (SNF) that
fail to comply with Medicare requirements. The Medicare Claims Processing Manual, Pub.
No. 100-04, chapter 6, section 50, denies payment for Medicare Part A services provided to
beneficiaries initially admitted during a DPNA sanction period. The Medicare Financial
Management Manual, Pub. No. 100-06, chapter 7, requires Medicare contractors to maintain
internal controls to prevent erroneous payments; chapter 3 requires Medicare contractors to
pursue recovery of overpayments, including those made to terminated or sanctioned Medicare
providers.

National Government Services, Inc.

Empire HealthChoice Assurance, Inc. (Empire), was an FI during our audit period (January 1,
2003, through January 31, 2007). However, this report refers to the auditee as “National
Government Services, Inc.” (NGS), because in January 2007, NGS assumed the FI business
operations of Empire. CMS subsequently awarded NGS two MAC contracts for the
administration of Medicare Part A and Part B claims.




                                               1
OBJECTIVE, SCOPE, AND METHODOLOGY

Objective

Our objective was to determine whether NGS recovered Medicare overpayments for services
furnished on or after the effective termination dates of provider agreements or during
termination-related DPNA sanction periods.

Scope

We reviewed NGS payments to 64 providers with effective termination dates between January 1,
2003, and January 31, 2007. The reviewed payments were for services furnished on or after the
providers’ effective termination dates or during a termination-related DPNA sanction period. 1
We limited our review of internal controls to discussing with NGS officials the procedures used
to retroactively identify and recover the overpayments identified during our review.

Our fieldwork included contacting NGS in Indianapolis, Indiana, and Louisville, Kentucky.

Methodology

To accomplish our objective, we:

       used a CMS nationwide list of providers with effective termination dates during the audit
        period to query the National Claims History files;

       identified 64 NGS-serviced providers that received Medicare payments for services
        furnished during or after our audit period;

       analyzed CMS, National Claims History, and NGS data and identified five providers that
        each received $5,000 or more in overpayments for services furnished on or after the
        providers’ effective termination dates or during a termination-related DPNA sanction
        period; and

       worked with NGS to quantify the overpayments that were subject to recovery as of the
        start of our audit.

We conducted this performance audit in accordance with generally accepted government
auditing standards. Those standards require that we plan and perform the audit to obtain
sufficient, appropriate evidence to provide a reasonable basis for our findings and conclusions
based on our audit objectives. We believe that the evidence obtained provides a reasonable basis
for our finding and conclusions based on our audit objective.




1
  We reviewed NGS payments for services furnished during a DPNA sanction period only if the DPNA was
referenced in the termination documents that we reviewed.


                                                     2
                               FINDING AND RECOMMENDATIONS

NGS did not always recover Medicare overpayments for services furnished on or after the
effective termination dates of provider agreements or during termination-related DPNA sanction
periods. For 59 of the 64 terminated providers whose payments we reviewed, NGS had not
made material overpayments that were subject to recovery as of the start of our audit. However,
for the five remaining providers, NGS had not recovered a total of $1,221,342 in overpayments
that were subject to recovery. NGS had not recovered $1,159,522 of this total because it did not
follow its procedures to retroactively identify payments for posttermination services. NGS had
not recovered the remaining $61,820 because it had not yet implemented written DPNA-related
procedures. NGS confirmed that the overpayments were subject to recovery.

FEDERAL REQUIREMENTS

Section 1814(a) of the Act provides that “payment for services furnished an individual may be
made only to providers of services which are eligible therefor under section 1866 [which sets
forth the requirements for provider agreements] ….” Pursuant to section 1866(b)(2) of the Act
and 42 CFR §§ 489.53 and 489.54, CMS or the Office of Inspector General may terminate a
provider agreement for cause. Additionally, section 1866(b)(1) of the Act and 42 CFR § 489.52
permit a Medicare provider to voluntarily terminate its provider agreement. Except in certain
limited circumstances considered during this audit, such as those described in 42 CFR § 489.55,
no Medicare payment is available for services furnished to a beneficiary on or after the effective
date of termination of a provider agreement.

Section 1819(h)(2)(B)(i) of the Act and 42 CFR § 488.417(a)(1) permit CMS to impose a DPNA
sanction on SNFs that are not in substantial compliance with Medicare requirements. In
addition, pursuant to 42 CFR § 488.417(b), CMS is required to impose a DPNA sanction when a
SNF (1) “is not in substantial compliance … 3 months after the last day of the survey identifying
the noncompliance …” or (2) has been cited “with substandard quality of care on the last three
consecutive standard surveys.” The sanction applies only to a “new admission,” which 42 CFR
§ 488.401 defines as “a resident who is admitted to the facility on or after the effective date of a
denial of payment remedy and, if previously admitted, has been discharged before that effective
date.” 2 The Medicare Claims Processing Manual, Pub. No. 100-04, chapter 6, section 50.1,
provides that the DPNA sanction applies to “days that would otherwise be Part A-payable; i.e.,
the care is covered but no payment will be made to the provider.”

The Medicare Financial Management Manual, Pub. No. 100-06, chapter 7, requires Medicare
contractors to maintain internal controls to prevent and detect erroneous payments; chapter 3
requires Medicare contractors to pursue recovery of overpayments.

OVERPAYMENTS NOT RECOVERED

As of the start of our audit, NGS had not recovered overpayments to five providers. Providers A,
B, D, and E in the table on the next page received Medicare overpayments for services furnished

2
 In addition, 42 CFR § 488.401 provides that “[r]esidents admitted before the effective date of the denial of
payment, and taking temporary leave, are not considered new admissions, nor subject to the denial of payment.”


                                                        3
on or after the providers’ effective termination dates. Provider C, a terminated SNF, received
overpayments for new admissions during a termination-related DPNA sanction period. NGS
confirmed that these overpayments were subject to recovery.

                           Unallowable Claims and Overpayments
                                        Unallowable
                                          Claims        Overpayments
                         Provider A          511           $970,056
                         Provider B           64            148,516
                         Provider C           23             61,820
                         Provider D          581             31,002
                         Provider E           12              9,948
                           Total           1,191         $1,221,342

NGS did not recover the overpayments to providers A, B, D, and E before our audit because it
did not follow its procedures to retroactively identify and recover the payments. Although NGS
stated that such procedures were in place, it could not locate written procedures. As a result of
our audit, NGS updated and formalized its procedures effective March 2009.

NGS did not recover the overpayments to provider C before our audit because it had not yet
developed written DPNA-related procedures. However, NGS implemented these procedures in
February 2007.

RECOMMENDATIONS

We recommend that NGS:

      recover $1,221,342 in overpayments to the five terminated providers and

      follow its procedures to retroactively identify and recover overpayments for services
       furnished on or after the providers’ effective termination dates.

NATIONAL GOVERNMENT SERVICES COMMENTS

In written comments on our draft report, NGS agreed with our recommendations and provided
information on the status of its claim adjustments. NGS’s comments, except for sensitive
information, are included as the Appendix.




                                                4
APPENDIX
                                                                                                                                               Page 10f2

         APPENDIX: NATIONAL GOVERNMENT SERVICES COMMENTS 



     f...L..Nationalservices.
        .JII(
                      cC!:vernment
                                                                                                                          Medicare
            N.liooal c;.,wmnw<1tSt-,vi...." Inc. 

            1'.0. 80.>. 7131 

            IndianapoliJ. Indian. 46207·7181 

           A eMS c,~,,_ ... t Agr>"



          February 26, 2010


         Mr. Stephen Siamar 

         Act ing Regional Inspector General for Audit Services 

         Office of Audit Services, Region V 

         223 North Michigan Avenue 

         Suite 1360 

         Chicago, IL 60601 




         Re: NGS Response to DIG Audi t, Report Number: A-05-09-00035

         Dear Mr. Siamar:

         This letter is in response to the above referenced draft we received Janua ry 22, 2010, entitled
         "Review of National Government Services Inc., Medicare Payments to Providers Terminated
         Between January 1,2003 and January 31, 2007."

         National Governmen t Services (NGS) agrees with the audit recommendations noted in the draft
         report. Please see the table below that outlines the status of claim adjustments necessary to recoup
         the overpaymenl<; made eluring this period

                P'ovlder         Unallowable                                     Completed          Adj In   Incomplete

                                                                                                                             .
                                                                                                                          Invalid    $0.00




                                                                 ,.-                                                      ""
                                   Claims
                   "                             Ovema'ml nts      Provide••       AO              SMTERM'      AO                   AO          ,~,




           Provide< A                            •
                                                 910,056
                                                                                    ,,.,
                                        '" ,                                                         '"
           Pfovld" a                        ~    14a,516


                                                 •
                                                                 ...-
                                                                 . .-
                                                                                     "
                                                                                                     ,        '"

                                                                    --
           P,,"";'''',C
                                         " ,     61.620
                                                                                      "
                                                 31 ,002                                                                    ,
          Provide' 0
                                        '" ,                                         '"                         "                     "
          Proviclll, E                           9,9018                                              ,
                                         "                                            "                                     ,
          Total
                                                                                     ".II
                                                                                                     m
                                                                                                                "                     "                 1,191

          'SMTERM                Su~pended   IocaIiOO fo, OIG a<I,us/me~ts _ p'oblem WIIh SMCABl




                                                                                                                                    C/J.'TSL
                                                                                                                      -    ........,..*~ ........ , 



Office of Inspector General Note-We have deleted sensitive information from this appendix.
                                                                                                  Page 20f2




    Of the 1,191 original claims;
       784 have be..!n adjusted, recoupingS254,SSl.
       3n have been adjusted but would not post to CWF due to a FISS problem                   This
       problem should be corrected with a fix in the April Quarterly release. With the correction of
       this situation and addi t ional $963,226 will be recouped.
       15 adjustments were n ot completed due to the claims. being o ff-line. Those claims are being
       retrieved and oncecompll'led will resu lt in the rccoupmentof$3,099.
   • 	 7 cou.ld nol be adjusted due to in valid H ie numbers. These claims represented $168. 

       13 claims did not involve overpayments. 


NGS ilppreciates the opportunity to respond to the drilft report. Should you have further q uestions, 

please fee l free to conlact Law rence Bankston. Claims Manager, 31502-329-8574. 





David A. Marshall 

Chief Operating Officer, 

National Government Services, Inc. 


cc: Sharon Weddel, Part A!RHHI Claims Director
